<html>
<title> - HEARING ON PROTECTING TAXPAYERS AND ENSURING ACCOUNTABILITY: FASTER SUPERFUND CLEANUPS FOR HEALTHIER COMMUNITIES</title>
<body><pre>[Senate Hearing 113-770]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-770

                   PROTECTING TAXPAYERS AND ENSURING
                    ACCOUNTABILITY: FASTER SUPERFUND
                   CLEANUPS FOR HEALTHIER COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-180 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                       Subcommittee on Oversight

                  CORY A. BOOKER, NEW JERSEY, Chairman
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 10, 2014
                           OPENING STATEMENTS

Booker, Hon. Corey, U.S. Senator from the State of New Jersey....     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    35

                                WITNESSES

Breen, Barry N., Principal Deputy Assistant Administrator, Office 
  of Solid Waste and Emergency Response, U.S. Environmental 
  Protection Agency, Accompanied By: Judith A. Enck, Region 2 
  Administrator, U.S. Environmental Protection Agency............     5
    Prepared statement...........................................     8
Responses to additional questions from:
    Senator Booker...............................................    18
    Senator Vitter...............................................    21
    Senator Gillibrand...........................................    30
Gibbs, Lois, Executive Director, Center for Health, Environment 
  and Justice....................................................    41
    Prepared statement...........................................    44
Delaney, Joseph, Mayor, Garfield, New Jersey.....................    49
    Prepared statement...........................................    51
Spiegel, Robert, Executive Director and Co-Founder of Edison 
  Wetlands Association...........................................    54
    Prepared statement...........................................    56
Bodine, Susan, Partner, Barns & Thornburg........................    63
    Prepared statement...........................................    65
Thompson, Scott, Executive Director, Oklahoma Department of 
  Environmental Quality..........................................    81
    Prepared statement...........................................    83
 
  HEARING ON PROTECTING TAXPAYERS AND ENSURING ACCOUNTABILITY: FASTER 
              SUPERFUND CLEANUPS FOR HEALTHIER COMMUNITIES

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Dirksen Senate Building, Hon. Corey Booker (chairman of 
the subcommittee) presiding.
    Present: Senators Booker, Gillibrand and Inhofe.

            OPENING STATEMENT OF HON. COREY BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. Good afternoon, everyone.
    I am very happy to be chairing this hearing of the 
Subcommittee on Oversight of the Committee on Environment and 
Public Works. We will come to order.
    Senator Inhofe just pointed out I have started off well. 
This is the first time I am holding a gavel, so if I make any 
mistakes, the Senators decided to be very charitable with me as 
I hope you will be as well.
    On behalf of Ranking Member Inhofe and members of the 
subcommittee, welcome to our witnesses. Thanks to several of 
you for traveling long distances. Some of you have traveled 
distances I know so well down from New Jersey, so I am 
grateful.
    Across the United States, we have far too many 
unremediated, dangerous Superfund sites sitting in our 
neighborhoods, properties that are literally poisoning 
residents. The problem is particularly acute in the State of 
New Jersey which is both the most densely populated Stated in 
America and the State with the most Superfund sites.
    Superfund sites on the National Priority List are the most 
heavily contaminated properties in the Country and the sites 
that pose the greatest potential risk to public health and 
environment. These sites endanger the health of our children 
and thwart economic development in our communities.
    Our purpose today is to look at the impact these 
contaminated sites are having on our communities, to look at 
ways to speed up the cleanup process and to look at options for 
how to bring desperately needed additional funding to the 
Superfund Program.
    As Mayor of Newark, I have seen firsthand the devastating 
impacts that Superfund sites can have on a community. When they 
are not cleaned up, contaminated properties are blights in our 
American neighborhoods. When these sites are cleaned up, the 
opportunities flow for job creation, new tax revenues and most 
importantly, for healthier communities.
    It has been estimated that 11 million Americans live within 
one mile of a Superfund site and that 3-4 million children our 
most vulnerable Americans do as well. Let me repeat, that is 3-
4 million children in the United States who live within one 
mile of a Superfund site.
    The reason that is important is because of what I believe 
is a truly chilling statistic. Researchers at Princeton, MIT 
and Berkeley, after reviewing hundreds and hundreds of 
thousands of birth records, found that babies born to mothers 
living within one mile of a Superfund site, prior to that site 
being cleaned up, had a 20 percent great incident of being born 
with birth defects.
    Let me repeat, that is a 20 percent higher rate--20 percent 
more babies being born with congenital anomalies like heart 
defects or Downs Syndrome, prior to a Superfund site being 
cleaned up.
    That study is not alone. For example, a 2009 peer-reviewed 
research study concluded that autism rates were substantially 
higher for children within ten miles of a Superfund site. This 
is alarming and unacceptable that we have sites in America 
ready to go but for the resources we are not cleaning them up.
    Every day that we wait, every month, every year that goes 
by, more children are facing these staggering risks, more 
parents have to worry about the health of their unborn 
children. nationwide, there are hundreds of Superfund sites 
that are on the National Priority List where mediation has not 
even begun. There are hundreds more sites on the list where 
remediation is ongoing but too often at a pace that is slowed 
by inefficient funding problems.
    Appropriated funding for 2013 and 2014 for the Superfund 
Program is at the lowest level of funding in over 25 years. 
Adjusted for inflation, we are currently funding the Superfund 
Program at 40 percent of 1987 levels. From 1992 to 2000, an 
average of 80 Superfund cleanups were completed each year. In 
2013, just 14 were completed.
    In 2010, the GAO issued a report which found the current 
funding levels likely to not be sufficient to meet the needs of 
the Superfund Program. Based upon EPA official estimates of 
future program costs, the GAO found future funding needed will 
be 2.5 times higher than funds appropriated annually for the 
program over the past decades.
    From the time of the GAO report to today, things have only 
gotten worse. Funding has dropped an additional 17 percent 
while more sites have been added to the National Priority List.
    Today, Senator Boxer and I are requesting that the GAO 
update their 2010 report. This week, along with Senator 
Menendez, my senior Senator from New Jersey, we will be 
introducing the Superfund Polluter Pays Restoration Act of 
2014. This bill would reinState the excise tax on polluting 
industries, one approved by President Reagan, in order to 
provide funding for Superfund cleanups.
    Today, I look forward to hearing from all of our witnesses 
and I look forward to working with Senators on both sides of 
the aisle to move forward to address these serious concerns and 
issues.
    Senator Booker. Before hearing from our witnesses, I will 
turn to Senator Inhofe, the Ranking Member, for his opening 
statement. Again, I am grateful that you are here, Senator.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    We also have an Oklahoman here, Scott Thompson. We go back 
many years. He will be on the second panel. I hope we will be 
able to return from the votes that are in line right now.
    Thank you for holding this meeting. I know the Superfund 
Program is a very important one in your State, Mr. Chairman, as 
well as in mine. Tar Creek was a big one that we had in 
Oklahoma. It is a 40 square mile area in the northeastern part 
of the State that was contaminated by lead and zinc mines that 
were abandoned back in the 1970's.
    The site was added to the National Priority List in 1981 
but it rightfully received a lot of attention in 2006 when the 
Corps of Engineers released a study showing that the 
underground mines were at risk of collapsing.
    After a lot of effort on the part of the Oklahoma 
delegation, the EPA, the Oklahoma Department of Environmental 
Quality and several other stakeholders, we successfully got the 
at risk people out of the Tar Creek area.
    To tell you how serious this was, Mr. Chairman, we had one 
elementary school that we found after we did a lot of digging 
around to find out where the danger of collapse was, and it 
went right under the elementary school and could have happened 
at any time.
    In a number of the major components of the cleanup, work 
had already been completed. While there is more to be done, I 
am very appreciative that progress has been made by all the 
stakeholders involved.
    Superfund sites need to be cleaned up. There is no question 
about that but the cleanup process needs to happen in the most 
cost effective and fair way possible. Generally, the financing 
for Superfund cleanups comes from agreements between the EPA 
and the parties responsible for the pollution.
    Having the responsible parties pay for the contamination 
they cause is the way it should be. This is what happens about 
70 percent of the time. In other cases, where the responsible 
parties cannot be identified, EPA pays for the cleanup out of 
appropriated dollars.
    Some, including the Chairman of this Subcommittee, have 
called for the reinstatement of the Superfund tax to provide 
additional financing to the Superfund list. I understand why 
they are putting marker down. The tax is structured in a way 
that makes it appear like polluter pays when in reality, it is 
not.
    There are two things I want to bring to everyone's 
attention that I do not think people realize about the 
Superfund tax. First, it applies to everyone. By taxing each 
barrel of oil produced and imposing a surtax on all income 
earned over $1.2 million by corporations, even small businesses 
that do not have any risk of contamination are required to pay 
the tax.
    While I know many think oil, gas and chemical industries 
are dirty, I do not believe the EPA has identified a single 
responsible party that did not ultimately pay its fair share of 
remedial costs at a Superfund site.
    The second thing is that in the President's budget, does 
not propose to use any of the additional revenue raised by the 
Superfund tax, if it is actually imposed, to actually boost 
spending in the Superfund Program. This underscores that 
problem we have is not funding; it is priorities.
    In fact, during the recent years of high appropriations for 
the EPA, funding for the Superfund Program remained flat. It 
did not go up by any significant amount. The funding went up 
for the EPA but not the Superfund portion of that. It makes me 
think that the purpose behind the Administration's Superfund 
tax proposal is more about imposing more taxes on industry than 
it is about cleaning up contaminated sites.
    To increase the effectiveness of the Superfund Program, the 
EPA needs to be doing more with less. The agency needs to trim 
its costs of administering the program so that more funds are 
freed up for cleanup work. Once the EPA has demonstrated that 
it can do this, it would be reasonable for us to consider 
moving funds within the EPA's existing budget to make this 
work.
    We had several examples before you began serving in this 
body, Mr. Chairman. One was in Louisiana where we had a way of 
cleaning up a site that was about one-fourth the cost of doing 
it through the EPA. We had a difficult time getting this done.
    I think we need to look at those opportunities and look at 
the cheapest way to get it done as opposed to looking always to 
the bureaucracy. As this comes up and we talk about renewing 
this, we want to be sure to cover those options.
    I will be there with you or against you but we are working 
in terms of correcting the problem.
    [The prepared statement of Senator Inhofe follows:]

             Statement of Hon. James Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Chairman Booker, thank you for taking the time to hold this 
hearing. I know the Superfund program is very important to your 
state, as it is to mine. Tar Creek is a 40 square mile area in 
the northeastern part of Oklahoma that was contaminated by lead 
and zinc mines that were abandoned in the 1970's. The site was 
added to the National Priorities List in 1981, but it 
rightfully received a lot of attention in 2006 when the Corps 
of Engineers released a study showing that the underground 
mines were at risk of collapsing.
    After a lot of effort on the part of the Oklahoma 
delegation, Oklahoma's Department of Environmental Quality, EPA 
Region 6, and many other stakeholders, we were successfully 
able to get all of the at-risk folks out of the Tar Creek area 
who were willing to move. A number of the major components of 
the cleanup work have already been completed, and while there 
is still a lot of work to be done, I'm very appreciative of the 
progress that's being made by all the stakeholders involved. 
Superfund sites need to be cleaned up, there is no question 
about that. But the cleanup process needs to happen in the most 
cost effective way possible.
    Generally, the financing for Superfund cleanups comes from 
agreements between EPA and the parties responsible for the 
pollution. Having the responsible parties pay for the 
contamination they caused is the way it should be. This is what 
happens about 70 percent of the time. In other cases, where the 
responsible parties cannot be identified, the EPA pays for the 
cleanup out of appropriated dollars. Some, including the 
Chairman of the Subcommittee, have called for the reinstatement 
of the Superfund tax to provide additional financing to the 
Superfund trust fund.
    I understand why they are putting this marker down. The tax 
is structured in a way that makes it appear like a ``polluter 
pays'' tax, when in reality, it is not. There are two things I 
want to bring to everyone's attention that I do not think 
people realize about the superfund tax. The first is that it 
applies to everyone. By taxing each barrel of oil produced and 
imposing a surtax on all income earned over $2 million by 
corporations, even small businesses that do not have any risk 
of contamination are required to pay the tax. While I know many 
think the oil, gas, and chemical industries are dirty, I do not 
believe the EPA has identified a single responsible party that 
did not ultimately pay its fair share of remedial costs at a 
Superfund site.
    The second is that in the President's budget, he does not 
propose to use any of the additional revenue raised by the 
Superfund tax to actually boost spending in the Superfund 
program. This underscores that the problem we have is not 
funding--it is priorities. In fact, during recent years of high 
appropriations for the EPA, funding for the Superfund program 
remained flat. It did not go up by any significant amount. This 
makes me think that the purpose behind the Administration's 
superfund tax proposal is more about imposing more taxes on 
industry than it is about cleaning up contaminated sites. To 
increase the effectiveness of the Superfund program, the EPA 
needs to be doing more with less. The agency needs to trim its 
cost of administering the program so that more funds are freed 
up for cleanup work. Once EPA has demonstrated that it can do 
this, it would be reasonable for us to consider moving funds 
within EPA's existing budget framework from lower priority, 
non-infrastructure related programs to this important program. 
I thank the witnesses for appearing today and look forward to 
hearing your testimony.

    Senator Booker. I want to thank the Ranking Member for his 
opening comments.
    Maybe as an effort to build some suspense, Senator Inhofe 
and I actually need to go do a quick vote. We will have a short 
recess and after we vote, I will hustle back here as quickly as 
possible. I don't think I will keep up with this guy, but I 
will try.
    We will reconvene at 3:15 p.m.
    [Recess.]
    Senator Booker. According to Senate standard time, we are 
earlier than we said we would be. Please take note of that for 
the congressional Record, please.
    Picking up after the opening statements of myself and the 
Ranking Member, I am happy that we can actually now move to 
Barry Breen, Principal Deputy Assistant Administrator, Office 
of Solid Waste and Emergency Response, EPA. We are very 
grateful that you would take time to come down.
    Also on your left is Judith Enck who is the Region 2 
Administrator of the U.S. Environmental Protection Agency.

    STATEMENT OF BARRY N. BREEN, PRINCIPAL DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, 
U.S. ENVIRONMENTAL PROTECTION AGENCY, ACCOMPANIED BY: JUDITH A. 
  ENCK, REGION 2 ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Breen. Thank you, Mr. Chairman.
    As you described, I am joined by Administrator Judith Enck 
from the Region 2 office. She is here to answer site-specific 
and program-related questions for sites in New Jersey, New 
York, Puerto Rico and the Virgin Islands.
    The Superfund Program was established in 1980 to respond to 
hazardous waste sites throughout the Nation. The program has a 
variety of tools to help protect human health and the 
environment. These include shorter term removal actions and 
longer term remedial actions.
    Each year, more than 30,000 emergencies involving the 
release or threatened release of oil or hazardous substances 
are reported in the United States. In a typical year, EPA 
completes or oversees the completion of some 300 removal 
actions.
    On the longer term side, while there is no common way to 
characterize communities located near Superfund sites, our 
analysis of the latest census data found that approximately 49 
million people live within three miles of a Superfund NPL site 
or Superfund alternative agreement site.
    Mr. Chairman, I picked up as well your description of those 
who live within a one mile radius and both are relevant ways of 
measuring.
    Using the three mile radius, the population is more likely 
to be minority, low income, linguistically isolated and less 
likely to have a high school education than the U.S. population 
as a whole. As a result, these communities may have fewer 
resources with which to address concerns about their health and 
the environment.
    The importance of Superfund cleanup is highlighted by 
recent academic research. You mentioned it as well, Mr. 
Chairman, the article in the American Economic Review that 
indicated that congenital abnormalities are reduced by roughly 
20-25 percent for those living within 5,000 meters of a site.
    As well, Senator Inhofe, you described the Tar Creek 
Superfund site and their site actions have helped reduce the 
percentage of local children who had elevated blood lead levels 
from 35 percent to less than 1 percent. We are enormously proud 
to have worked with partners in that respect, including 
Executive Director Thompson's Oklahoma DEQ in this matter.
    Besides the important health benefits, there are important 
economic benefits generated by the Superfund Program. A 2012 
study completed by researchers at Duke University and the 
University of Pittsburgh found that deletion of a site from the 
National Priorities List after cleanup significantly raised the 
value of owner-occupied housing within three miles of the site 
by between 18 and 24 percent.
    The shape of the curve is instructive in that regard. The 
study tracks the value changes in property over time, not just 
at the time of discovery but as well the time all the way 
through to deletion from the NPL.
    What we find is that the property value decreases when the 
site is proposed for the NPL but then increases by more than a 
compensating amount when the site is finalized on the NPL and 
then continues to increase as the cleanup progresses.
    The market seems to be anticipating the work that the EPA 
will do. That is, first announcement of a proposal does have a 
draw down in the property value but then over time, the work 
much more than makes up for that as we come to completion so 
that at the end, when the site is deleted, it has increased in 
value by between 18 and 24 percent.
    That is residential, owner-occupied and that is the average 
but of course what that means is that enables that neighborhood 
and community to do that much more--not just on environmental 
matters, but throughout the things that government can do.
    Working with communities on the future of sites has 
resulted in more than 700 Superfund sites in actual, continued 
or planned reuse. At the 373 sites that have been studied, 
there are more than 2000 businesses generating more than $32 
billion in annual sales, providing more than 70,000 jobs and 
$4.9 billion in employment income.
    While Superfund continues to make progress, there are 
challenges. One is that the funding has decreased from the 
Fiscal Year 2011 budget of $605 million to the Fiscal Year 2014 
budget of $500 million. This has resulted in a continued 
backlog of sites.
    The President's Fiscal Year 2015 budget requests an 
increase of $43 million. The President has also requested that 
the Congress reinState the lapsed Superfund tax.
    Thank you, Mr. Chairman. That completes my statement. I and 
Regional Administrator Enck will be happy to answer questions 
from you or your colleague.
    [The prepared statement of Mr. Breen follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    
    Senator Booker. I am grateful for that. Why don't I lead 
with the questions followed by the Ranking Member and if there 
are more, given the limited time we have, we can go back for 
another round.
    Mr. Breen, thank you again for that great testimony and for 
highlighting some of the issues that obviously are resident 
with my opening remarks.
    The EPA, we know, has the authority to create financial 
responsibility requirements. This would require companies 
currently managing hazardous substances to demonstrate they 
actually have the financial ability to pay for any future 
release of a hazardous substance.
    It is very important we keep taxpayers off the hook for 
cleaning up future Superfund sites. Right now, taxpayers are 
often on the hook for the mistakes made in the inability to pay 
of past companies.
    This would ensure that funding is actually available so 
that we don't have the problem we have right now of funding the 
Superfund sites. I would like to know the status of the EPA 
rulemaking on this issue?
    Mr. Breen. In the vernacular, this is called the 108(b) 
rulemaking because the statutory authority for it is in Section 
108(b). I think it was actually in the original enactment in 
1980. It was a very hard problem to approach and very 
complicated, easy to frame but complicated to address.
    Over the last several years, the EPA has started to address 
it and has identified hard rock mining and mineral processing 
as the first industries for 108(b) rulemaking. We currently 
have that on a scheduled publication of a proposed rule in 
2016.
    We also have as well items underway in other industries but 
I expect the hard rock mining and mineral processing would be 
the first rules in this regard.
    Senator Booker. What is the timeline on that, do you think?
    Mr. Breen. 2016.
    Senator Booker. 2016, for all areas?
    Mr. Breen. No.
    Senator Booker. Just the hard rock?
    Mr. Breen. Mr. Chairman, that is right, just the initial 
class of hard rock mining and mineral processing. Then there is 
more that we expect will be studied as well.
    Senator Booker. Ms. Enck, again, thank you so much for 
being here and for the work you do in Region 2. I give you 
gratitude for the work you do in Region 2, except for Puerto 
Rico which I imagine you enjoy going to visit more than perhaps 
New Jersey.
    I'd like to get an update on the cleanup status of some of 
the Superfund sites actually in New Jersey. I am concerned that 
there are many hazardous sites in New Jersey that could be 
moving forward with cleanup but are not because funding is not 
available.
    Yesterday, we visited together the Syncon Resins Superfund 
site in Kearny, New Jersey. Paints, varnishes and resins were 
formerly manufactured at this site. Hazardous chemicals were 
found in both the soil and the groundwater. This site has been 
on the NPL since 1983.
    For the record, could you please give me an update on the 
status of this site and when remediation work will begin?
    Ms. Enck. Sure. Thank you, Senators. My sincere thanks to 
both you and Senator Inhofe for convening this hearing on such 
an important topic, especially for New Jersey where, as you 
know, we have 149 Federal Superfund sites. I want to talk about 
a few that we need resources to address.
    Certainly Syncon Resins, which you visited yesterday, I 
think really illustrates the challenge that is before us in 
this program.
    This is a 15-acre site, located on a peninsula right 
between the Hackensack River and the Passaic River, so it 
floods. During Hurricane Sandy, the groundwater remediation 
building filled with water, and needed to stop operating.
    We have done a lot of work at the site. It is contaminated 
with volatile organic compounds like Solulene and Toulene and 
heavy metals such as lead and nickel. It is contaminated with 
PCBs and with highly toxic pesticides, DDT and Aldrin.
    We have taken our work there very seriously--10,000 people 
live within three miles of this site. The closest residents are 
in the city of Newark, just one mile away from this site.
    We have cut this site into two phases. Phase 1, we have 
removed about 13,000 drums, many of them leaking chemicals. We 
dealt with storage tanks, there were hazardous waste lagoons on 
the site that we were able to remediate, and we installed a 
groundwater collection system.
    Phase 1 ran us about $21 million. This money came from the 
Superfund because the company that created the mess, to use a 
technical term, is bankrupt.
    We want to get on to Phase 2 of cleaning up this site which 
we are working together with the State of New Jersey on but 
Phase 2 will cost $24 million. We currently do not have the $24 
million available to finish the cleanup.
    We have to dig out about 40,000 cubic yards of contaminated 
soil and there are a number of buildings on the site that are 
on top of the contaminated soil, so we are going to have to 
demolish the building. We are about $24 million short, so I 
can't tell you what the timeline is to finish the job.
    Senator Booker. I am going to let the Ranking Member ask 
his questions. When I have a chance, I'd like to followup some 
more.
    Senator Inhofe. Mr. Breen, I mentioned this briefly in my 
opening remarks. Before we talk about additional money to the 
Superfund Program, whether through revenue increases or 
additional appropriations, I think we need to understand where 
the money we are already appropriating is actually going.
    The last report--maybe you know of one more current than 
this--was in 1998 when the GAO reported that of all the 
Superfund spending, less than half, 46 percent, was actually 
used to clean up the contaminated sites. Has this report been 
updated since 1998?
    Mr. Breen. Senator, I am not aware of an update to the GAO 
report of 1998 in that regard.
    Senator Inhofe. My concern is with the administrative 
efficiency of the EPA because I have been here since before 
that time and it hasn't really improved over the last 16 years. 
This means the money being appropriated for Superfund is not 
being adequately managed or far fewer cleanups are being done.
    Do you know if these numbers are any different today? Let 
me ask you to do this. Go through each year, you should have 
these fairly accessible to you, and let us know what has 
happened each year in terms of the percentage of money that is 
actually going to the Superfund sites. Could you get that for 
us?
    Mr. Breen. In fact, Senator, I brought some updated numbers 
from the President's Fiscal Year 2014 budget. Actually we are 
working off of Fiscal Year 2012 actuals that are reflected in 
the Fiscal Year 2014 budget. This would be actual data.
    In the actual data, the Superfund Remedial Program called 
on 49 percent of the budget and the Superfund Emergency and 
Removal Program called on 15 percent so that is 64 percent. The 
Superfund Enforcement Program, which draws so much additional 
money into the program, is an additional 15 percent so that 64 
and 15 is 79 percent.
    There are a number of areas that are 1 and 2 percent. There 
is an area identified as operations and administration which is 
10 percent.
    That gives you some sense that roughly of three-quarters of 
the money if not more is for actual remediation, removal and 
enforcement.
    Senator Inhofe. You are familiar with the President's plan 
now then?
    Mr. Breen. The President's plan.
    Senator Inhofe. Budget.
    Mr. Breen. The President's budget.
    Senator Inhofe. At 0.12 percent on the surtax.
    Mr. Breen. Senator, I don't want to miss one chance to 
explain one more thing. You identified the need to be as 
energetic as we can about saving money. Indeed, we are not 
resting on leaving business as usual.
    We have the Superfund Remedial Program Review underway in 
which we are undertaking even more work. I wouldn't want to 
leave you thinking we are just setting aside. For example, we 
are looking at work sharing among various organizations within 
the EPA and as well, trying to hold down the time.
    Senator Inhofe. What position were you in at the time of 
the Louisiana example I used? I couldn't remember the name but 
I can go back there and get all that stuff because I remember 
we had a hearing on that. We had a chance to do it a lot 
cheaper by some contractor down there that wasn't able to do 
it. Are you familiar with that case?
    Mr. Breen. Personally, I am not.
    Senator Inhofe. For the record, kind of look that up and I 
will do that so we can communicate about that.
    My concern is the surtax. I have two concerns. One is the 
surtax and the other is taxing people who happen to be in the 
oil industry or other industries when they haven't done 
anything or created any problem in a Superfund site.
    This 0.12 percent surtax would play not only to 
manufacturing companies but software companies, financial 
service companies, retail companies and some that pose no 
threat at all to Superfund. Is that correct?
    Mr. Breen. Senator, that portion of the tax is on incomes 
above a certain threshold. Many small businesses would not be 
subject to that portion of the tax.
    Senator Inhofe. I am talking about businesses that have 
nothing to do with anything that could result in a Superfund 
problem.
    Mr. Breen. I think it is the case that there is a 
surprisingly wide array of diverse sectors represented in those 
for whom Superfund responsibility ultimately is found. It is 
actually quite remarkable how many people find themselves as 
actual responsible parties. This is a way to recognize that.
    Senator Inhofe. It may be a way to recognize that but you 
are recognizing a lot more who have not found their way to do 
anything like that. The last time that this proposal was made, 
this was not even about a surtax. This was merely a tax on 
companies only because at that time there were oil or gas 
companies. That is where my opposition will come when we are 
looking at this.
    Thank you.
    Mr. Breen. I would just add, the Administration proposal on 
this, we actually provided bill language in 2010. It is with 
one minor update the same language that the Congress adopted 
the last time. We are not changing anything except for an 
updated definition.
    Senator Inhofe. I was opposed to it then too.
    Thank you.
    Senator Booker. Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman. I am grateful 
to be a part of this hearing. Thank you, Mr. Ranking Member, 
for holding it.
    Superfund is a very serious issue in New York State. I am 
grateful to see Judith Enck, who I have worked with for a very 
long time. She has provided extraordinary leadership in my own 
State of New York. Thank you, Mr. Breen, for joining us.
    I have a few questions. I had an opening statement that I 
will submit for the record.
    [The prepared statement of Senator Gillibrand follows:]

          Statement of Hon. Kirsten Gillibrand, U.S. Senator 
                       from the State of New York

    Chairman Booker, thank you for holding this hearing today 
to focus on the EPA's Superfund program, which is so important 
to the states we represent. would like to take a moment to 
welcome two witnesses to the committee today who both have a 
special connection to my State of New York. Judith Enck is the 
EPA's Regional Administrator for Region 2, which covers New 
York, New Jersey, Puerto Rico and the Virgin Islands. Regional 
Administrator Enck is a native of UpState New York, and has 
spent her entire career working to protect the environment of 
our state. I am pleased that she is here with us today and I 
thank her for her continued leadership.
    I would also like to acknowledge Lois Gibbs, who led the 
movement to bring awareness to and cleanup Love Canal. We all 
know the story of Love Canal, and of the heroic fight that Lois 
and her neighbors put up to protect the health of their 
families and put right a disastrous wrong. Her activism paved 
the way for the creation of the Superfund program, we are 
grateful for her continued advocacy to protect children's 
health.
    Beginning with Love Canal, New York has benefited from the 
Superfund program, through which we are cleaning up some of our 
most contaminated properties and waterways. Since the program 
started, there have been 116 Federal Superfund sites in New 
York State, 86 of which are currently still active. These range 
from the Hudson River to Onondaga Lake, and dozens of 
industrial sites from the tip of Long Island to Niagara Falls. 
Mr. Chairman, I'm glad that we are focusing this hearing on 
faster cleanups. For the families who live near Superfund 
sites, there is nothing more urgent than moving these projects 
forward.
    One particular community that I have heard from recently is 
the Village of Holley, which is located near Rochester. This 
village was affected by the spill of 75 gallons of chemicals in 
2002, after which residents were forced to relocate because the 
ground was too contaminated for them to continue to live in 
their homes. The EPA purchased these uninhabitable homes, with 
the intent of eventually returning them to the community. While 
I appreciate all that has been done to-date by the EPA to 
remediate this site, it is now 12 years after the initial 
spill, and the village still does not have a clear time-table 
for the sale of these homes or the fully finished remediation 
of the site. This is just one example of what I'm sure are many 
in each of our states.
    But we in Congress must also do our part to ensure that the 
EPA has all of the resources it needs to do an effective job at 
cleaning up Superfund sites. I look forward to working with 
you, Senator Booker, and with the other members of this 
committee to continue to support this vital program that is 
critical to the health and safety of our constituents. I look 
forward to hearing the testimony from our witnesses today, and 
I yield back the balance of my time.

    Senator Gillibrand. My questions are focused on four 
specific Superfund sites in New York State. The first one is 
Onondaga Lake cleanup. The lake has a history of pollution from 
municipal sewage waste and industrial discharge. In 1994, parts 
of Onondaga Lake were placed on the National Priorities List.
    Since being listed on the NPL as one of the Nation's most 
contaminated sites, efforts to clean up the existing pollution 
and mitigate future pollution have made Onondaga Lake the 
cleanest it has been in over a century.
    Senator Gillibrand. I know that the cleanup activities at 
Onondaga have reached a critical point. I would like to make 
sure that the restoration of the lake is completed in a timely 
manner. Do you see or are there any key obstacles remaining to 
finally getting Onondaga Lake off the NPL?
    Ms. Enck. Onondaga Lake once had the distinction of the 
most polluted lake in the Country. The good news is that it is 
coming back and because of that downtown Syracuse is coming 
back. I just met last week with the County Executive and we put 
our heads together often on how to keep this cleanup moving.
    I think we are in pretty good shape. It has taken a long 
time. The waste beds that dotted the lake are being cleaned up. 
Almost just as important, the huge amount of raw sewage that 
went into Onondaga Lake is being addressed.
    EPA has been working closely with the city of Syracuse and 
the county to promote green infrastructure, a more 
environmentally sustainable and often cheaper way to handle 
wastewater.
    We have worked closely with the Onondaga Nation. I think 
the Nation would like to see a more thorough cleanup than is 
underway but the massive amount of waste that dots that lake 
makes actual removal of a lot of that waste virtually 
impossible--30 years of multibillion dollar removals. I think 
the Nation is happy with the progress that we have made to 
date.
    I think in time we could look forward not only to sort of a 
process issue of delisting but making Onondaga Lake cleaner and 
a real anchor for economic development in downtown Syracuse. It 
has been a great cooperative effort with the local government, 
the State of New York and EPA.
    Senator Gillibrand. Another challenge is the Hudson River. 
Can you provide me with an update on how the dredging is going? 
What is the current status and what are the next steps?
    Ms. Enck. How many hours do you have?
    Senator Gillibrand. Thirty seconds.
    Ms. Enck. The Hudson River is a real success story. I grew 
up on the Hudson River, I think you spent a lot of time on the 
river. We heard for 25 years from the PRP, General Electric, 
first that PCBs were not a problem; second, that if you do 
dredging it was going to cause resuspension; and third, it 
wasn't worth spending the money.
    None of those things have proven to be true. We are ahead 
of schedule. We are about 60 to 70 percent done with dredging 
PCBs out of the Hudson River. About 1,000 jobs were created and 
Warren and Washington Counties desperately needed those jobs.
    There has not been a problem with resuspension and I think 
sometime in the future, it is going to be a long time but it 
might actually be safe to eat the fish that you catch in the 
Hudson. That was the driver on this cleanup.
    Senator Gillibrand. The third issue is the Village of 
Holley located near Rochester. The village was affected by a 
spill of 75 gallons of chemicals in 2002, after which residents 
were forced to relocate because the ground was too 
contaminated. The EPA purchased the uninhabitable homes with 
the intent of eventually returning to the community.
    Basically, the Village of Holley needs more clarity from 
the EPA on the timeline for completing the remediation. I just 
wanted to get your thoughts on whether we can work together to 
address these concerns?
    Ms. Enck. That is an important site. We expect to have all 
of the homes back on the market by the end of this year. I know 
that the Village was concerned that there was a pretty 
significant relocation. People had to leave their homes.
    Now there is a desire to get about 15 homes back on the 
market. We want to make sure those homes are safe and we should 
have that done by the end of this calendar year.
    Senator Gillibrand. Thank you.
    Mr. Chairman, I will submit for the record a final question 
about combined sewer overflows because there are many Superfund 
sites like the Gowanus Canal in New York that have been 
negatively affected by the combined sewer overflows In many 
cases, fixing the problem is going to be very costly for the 
municipalities.
    For the record, I will submit two questions about that in 
terms of how to help our cities meet those needs.
    Thank you.
    Senator Booker. Thank you, Senator.
    If I can continue, I have some questions about the Carney 
site. I'd also like to know about the Horseshoe Road site in 
Sayreville, New Jersey.
    The site was a former chemical processing site that 
produced coal, tar, asbestos, pesticides and other harmful 
chemicals. It was placed on the NPL list in 1995.
    Could give me an update just on when remediation work will 
begin?
    Ms. Enck. Horseshoe Road is a highly contaminated site as 
you have described. Right next door is the Atlantic Resources 
Corporationsite. We have approached this to clean up both sites 
almost simultaneously. We have spent $46.5 million in Superfund 
dollars. Again, this is an orphan site. We don't have a 
responsible party to pay the bill.
    We need another $34 million. I cannot tell you today, 
Senator, when that cleanup can be completed because I don't 
currently have the money to do that because of the shortage of 
funds. It seems a little crazy to do it halfway but that is our 
fiscal reality with those two sites.
    Senator Booker. Again, we have just gone through two sites 
that are not having further action taken on them because we 
simply don't have the money. Those are sites that are open 
sores, so to speak, polluting our area with people living 
around them. We know there are people living and residing 
within a mile of both of those sites.
    Both of those sites, Syncon Resins and Horseshoe are so-
called orphan sites where the polluters are not paying. We are 
paying--EPA is paying. Both orphan sites, as we said, are 
shovel-ready but remediation hasn't started because of lack of 
funding.
    The question I have is in a State like New Jersey where 
there are well over 100 sites, are there other sites in New 
Jersey just like these where but for the lack of funding, we 
could be getting them cleaned up?
    Ms. Enck. I am afraid the answer is yes. There are other 
sites where they are orphan sites. We don't have enough money 
to finish the job. What comes to mind right away is South 
Jersey Clothing contaminated an old, large dry cleaner 
facility, an industrial drycleaner which was contaminated with 
PERC.
    We have spent $19.6 million on that site. We need another 
$2 million to get the job done. I am not sure where we are 
going to find that money. Radiation Technology, we have spent 
$1.3 million. We need another $2 million.
    You will hear shortly from the Mayor of Garfield. I am not 
going to get into a lot of detail there other than to say we 
have spent $5 million at that site. It is in a residential area 
and a wonderful community. Some people think of Superfund sites 
as in a field and you just put a fence around them. Garfield is 
a vibrant, urban community that has a Superfund site right in 
the middle of it.
    No remedy has been selected for the final cleanup but we 
estimate it will cost tens of millions of dollars. We don't 
have that money today for the Garfield site.
    I can list others but your premise is absolutely accurate.
    Senator Booker. Site after site after site in New Jersey 
where we have significant a chemical presence and a tremendous 
amount of poison are not being acted upon by the simple fact 
that we don't have the resources to act upon them.
    Mr. Breen. Senator Inhofe discussed understandably the 
concerns about putting taxes on industries. I understand back 
in the 1986 reauthorization supported by Republicans colleagues 
of the Ranking Member, supported by frankly the Minority Leader 
who voted for that, was a tax both on industries across the 
board as well as on polluting industries, correct?
    Mr. Breen. Yes, sir.
    Senator Booker. The President's budget suggests doing it 
both ways. I would like your response to focusing on those 
polluting industries that produce tar sands, arsenic and the 
like, if we focused on those industries having the potential to 
cause serious damage, that would create funding to address some 
of these issues, if we more narrowly tailored it to the 
concerns the Ranking Member addressed?
    Mr. Breen. That precise question hasn't been presented to 
us for thoughtful review. We would want to be able to get back 
to you on that.
    Senator Booker. All right.
    Let me finish with one more question. Ms. Enck, perhaps you 
can take it.
    In 2010, the GAO did a report that looked at whether the 
level of appropriations over the prior 10 years would be 
sufficient moving forward for EPA to perform the needed 
Superfund cleanups.
    After talking with the EPA regional officials like you, the 
GAO concluded that the funds needed for the cleanups were 
likely 2-2.5 times greater than the funding being appropriated. 
Is that funding shortfall consistent with your experiences in 
Region 2. Second, if it is and we do not address this, what 
other solutions might we have in New Jersey, if any or if there 
are none, please say that?
    Ms. Enck. I think the GAO analysis is spot on. If you are 
asking me could EPA, Region 2 use twice or two and a half times 
more resources to address our backlog of Superfund sites, the 
answer is yes, we can absorb that. We would rely on our 
professional staff of scientists and engineers to cover more 
sites.
    It is not only just more sites. Because of these fiscal 
constraints, we have had to calibrate the cleanup schedule on 
some sites, for instance, the Roebling Steel Superfund site in 
Florence Township, again an abandoned site, no PRP to carry the 
cost. We have been spreading that out over a long period of 
time.
    This site was put on the Federal list in 1983. We have 
spent $135 million. We are not done, so it really has hindered 
redevelopment. If the GAO recommendation was to come true and 
we had 2-2.5 times more resources, not only could we tackle 
more sites but we could get to the finish line quicker.
    We must protect public health. That is our legal 
imperative, our science imperative to protect public health and 
the environment but we also want to get these sites productive 
and back on the tax rolls and being a real asset in communities 
rather than just having locked gates around them with do not 
enter signs.
    Senator Booker. The last part of my question was, say we 
don't do anything, Congress continues not to act. What are the 
consequences of that?
    Ms. Enck. The consequence is the process will be much 
slower. I am not going to say that we are not going to put 
sites on the list; if there is a public health imperative, we 
act but you basically put it on a slower schedule and sites sit 
undeveloped.
    I really want to rebut the notion that we are not being 
efficient with our resources. We are. We have a lot of sites. 
We want to cover all of them. If there is not an increase in 
funding, Superfund is super slow.
    We want to pick up the pace because when we pick up the 
pace, it means there is a greater level of public health 
protection and greater opportunity for redevelopment at these 
sites.
    Senator Booker. Mr. Breen, I guess that is the anguish I 
feel today and the more I have dug into this issue over the 
previous months. I understand and we are going to hear from a 
great panel about the economic development aspects. That is a 
real issue in a slow economy.
    Right smack in the middle of some of our small cities and 
communities in New Jersey, you have these areas that could be 
producing jobs, tax revenue and the like. I think that is 
compelling enough of a reason.
    Your mandate, as represented by the Region 2 director, is 
for public health. In your remarks, you began talking about the 
severe, this isn't bloody noses and a blister or two. These are 
health consequences that are devastating and life threatening 
to our most vulnerable populations as you pointed out, some of 
the poorest communities.
    These are things like birth defects and autism which New 
Jersey has one of the highest national rates of autism, as well 
as the highest number of Superfund sites, these are of real 
concern.
    You have this mandate to act. My question is you are 
telling me right now that you are unable to meet this public 
health crisis that you outlined simply because of the lack of 
congressional action to provide you with the resources? Is that 
what you are saying?
    Mr. Breen. Senator, we do have across the Country what we 
call unfunded, ready to go, new starts.
    Senator Booker. What do you mean by ready to go?
    Mr. Breen. Sites that are just waiting for funding in order 
to get the cleanup underway.
    Senator Booker. Is it a matter of prioritization? Can you 
take money from someplace else? Are you guys spending money on 
perhaps issues of other EPA enforcement? Can't you just take 
some money from someplace else and put it into this?
    Mr. Breen. Senator, the President has asked for money to 
come into this. The Fiscal Year 2015 budget asks for $43 
million more for this and additional dollars as well for the 
emergency removal work. We are asking and very much hoping.
    Senator Booker. I appreciate the two of you coming and 
providing testimony on what I believe are unacceptable public 
health crises in our Nation right now in which the anguish and 
the pain of families dealing with the health consequences are 
made real by numerous studies.
    Thank you again, Mr. Breen and Ms. Enck.
    I am looking forward to the next panel. It is good to have 
you all here. I am deeply grateful that you would take time to 
come to this important hearing.
    I am going to read who we have before us today and then 
begin with statements. First, we have Lois Gibbs, Executive 
Director, Center for Health, Environment and Justice, an 
organization you founded in 1981. It is not here but I assume 
that was when you were about 10 years old.
    The most important elected leaders in America are mayors. 
We have with us Joseph Delaney, currently serving as Mayor of 
the city of Garfield. Thank you very much for being here.
    We also have Mr. Robert Spiegel, Executive Director and co-
founder of the Edison Wetlands Association. I am grateful that 
you are here.
    Also, we have Scott Thompson, currently serving as the 
Executive Director for Oklahoma's Department of Environmental 
Quality. Scott, if you heard the good things that Senator 
Inhofe said about you behind your back, you'd be blushing right 
now. I appreciate all the work you have done in the great State 
of Oklahoma.
    Then we have Ms. Susan Bodine, currently a partner at Barns 
& Thornburg. Previously, Ms. Bodine served as the Assistant 
Administrator of the Environmental Protection Agency's Office 
of Solid Waste and Emergency Response.
    Thank you all for being here. As this is my first hearing, 
I want you all to know that you never forget your first time. 
Thank you all for being with me for this. You will be 
remembered.
    Why don't we start with Ms. Gibbs. I would appreciate it, 
Ms. Gibbs, if you would share your opening statement with us. 
Everyone, please mind your time.

STATEMENT OF LOIS GIBBS, EXECUTIVE DIRECTOR, CENTER FOR HEALTH, 
                    ENVIRONMENT AND JUSTICE

    Ms. Gibbs. Thank you. I want to thank all the committee 
members for inviting me here to speak about a program that is 
very near and dear to me.
    As you said, I am Executive Director of the Center for 
Health, Environment and Justice. We have worked for 12,000 
grassroots groups across the Country faced with environmental 
health risks.
    I began my work as a victim at Love Canal in Niagara Falls, 
New York. Over 30 years ago was my first time, Senator, when I 
sat at a similar table and spoke to another congressional 
committee about the need for funding of programs designed to 
assess and cleanup hazardous waste sites.
    My community at Love Canal was the impetus for the creation 
of the Superfund Program after 20,000 tons of chemicals buried 
in the middle of the neighborhood leaked into the surrounding 
homes, yards and schools. I spoke then about the health 
problems our neighborhood was faced with and how my daughter 
and son were home sick with liver, urinary and central nervous 
system disease.
    It is tragic that now more than three decades later, 
American communities face similar health threats to what I 
faced at Love Canal. Again, I am here pleading for you to 
support an effective Superfund Program.
    There is no question about the need for the Superfund 
Program or that the program must have a reliable funding to 
protect American families and their communities. There is clear 
evidence that many families who live near Superfund sites have 
suffered from serious adverse health effects, especially the 
children.
    One study mentioned earlier found 20-25 percent increase in 
birth defects from mothers who lived near Superfund sites when 
they compared the birth outcomes before and after the cleanup.
    It is the citizens and the health effects they suffer that 
get lost in the discussion of resource allocations and the 
control of Federal programs. Living in a Superfund community 
where there has been limited abatement and no clear commitment 
of whether the area will ever be livable again is an absolute 
nightmare.
    The families who live in the Waste Pits River site just 
east of the city of Houston, Texas are suffering because of 
contaminated fish and crab, common sources of food for these 
low wealth families. ATSDR found dioxin levels in the fish that 
were unacceptably high for cancer.
    After more than 20 years, EPA has decided to leave the 
waste in place and cover the pits rather than remove the 
contaminated soil and sediment. Why, because the other 
alternatives will cost too much money. The agency states it 
does not have the money.
    Similarly, residents living near the Tremont Barrel 
Superfund site in Springfield, Ohio are concerned because 
51,000 drums and 300,000 gallons of liquid toxic wastes were 
dumped in the landfill which is sitting above an aquifer. The 
aquifer provides drinking water for 82,000 people.
    If the barrels are left in place, EPA's current preferred 
option, this site will threatened the drinking water and public 
health for decades. EPA claims removing the barrels would be 
too costly.
    EPA said the same thing about removing 8,000 tons of highly 
radioactive waste buried in the West Lake Superfund site in St. 
Louis County, Missouri. The problem with this plan is an 
uncontrolled fire at an adjacent landfill that is moving toward 
the radioactive waste.
    Residents are already suffering respiratory problems from 
the landfill fire and are concerned the fire will soon reach 
the radioactive waste and add radioactive material to the gases 
being released by the fire.
    In addition to adverse health problems from contaminated 
air and water left for decades, everyone who lives near a 
Superfund site suffers from the Superfund stigma and the impact 
on property values. Homes of hard working Americans become 
essentially worthless. They can't sell them, they can't improve 
them, they can't abandon them and they surely don't feel safe 
living in them.
    No bank will give families a loan against their home, so 
they cannot fix the roof, improve their property or even use 
the home equity to send their children to college. Property 
values drop and the entire neighborhood begins to spiral 
downward. Soon homes deteriorate and the neighborhood 
deteriorates.
    No one will move in. No one can move out. The economic 
development comes to a screeching halt. These are not people 
looking for a free ride or a handout. They are hardworking, 
church going, tax-paying American families victimized by no 
fault of their own.
    For over 30 years, I have urged, begged and pleaded with 
Congress to take care of the innocent families who have fallen 
victim to corporate negligence and carelessness. Please, for 
the innocent, hardworking American family, their dreams, their 
hopes to be able to reach their potential, restore the polluter 
pays fees so that there is a reliable source of funding to 
provide the necessary cleanup to protect them and their 
investment from the worse toxic waste sites in America.
    Thank you.
    [The prepared statement of Ms. Gibbs follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    Senator Booker. Thank you for that very important 
testimony.
    We will now move on to the Mayor.

                 STATEMENT OF JOSEPH DELANEY, 
                  MAYOR, GARFIELD, NEW JERSEY

    Mayor Delaney. Thank you, Chairman Booker.
    I appear before you today on behalf of the people of the 
city of Garfield, a community of approximately 35,000 people 
located in southern Bergen County in the State of New Jersey. 
We are a multiethnic, multicultural and multi-religious 
community. We are a microcosm of America itself.
    Our city is an old industrial city filled with tired 
factory buildings, many of which are beyond their useful life. 
Many of those former industrial sites have contamination 
problems which are beyond the grasp of local government to 
handle.
    We also border the Passaic River which is described by many 
as one of the most polluted rivers in New Jersey runs from 
Newark Bay to the Garfield Dam.
    Back in 1983, at the EC Electroplating Factory located in 
our community, there was a spill of hexavalent chromium. 
Approximately 3,700 gallons of chromium were released into the 
earth; 1,056 gallons were recovered with the rest remaining in 
our soil.
    Over the last 25 years, the New Jersey DEP handled this 
site. They made a determination in the late 1980's that no 
further action was required and that there were no health 
concerns.
    In early 1993, Fire Company No. 3, located in the 
downstream plume of the undergroundwater table, had to be 
closed due to the detection of hexavalent chromium in the 
basement of that firehouse facility.
    As we have learned, once hexavalent chromium enters a 
building and crystallizes, it can be dispersed into the air. 
Scientific evidence tells us that if you breathe that dust into 
your lungs, it will likely cause cancer.
    Approximately 5 years ago in the fall of 2008, our city 
manager, Thomas Dutch, was contacted by the United States EPA. 
He was told they were taking on the responsibility for the 
chromium spill in our city.
    His initial meeting with the EPA was productive, based on 
the competence and genuine interest of the EPA in helping our 
people. We provided them with a list of residents, property 
owners and tenants in an effort to get notice out to the 
community that the USEPA would investigate and examine homes 
and properties in the affected area.
    The EC Electroplating facility is located in a densely 
populated section of Garfield. Within the spill area, there are 
more than 600 separate parcels of property. These include one 
and two family homes, multi-family dwellings, an elementary 
school, a daycare facility, houses of worship, and industrial 
and commercial properties.
    We have 6,300 separate parcels of property in our city. 
Therefore, almost 10 percent of our community has been 
affected. Notification has been made to residents in multiple 
languages: English, Spanish, Polish and Macedonian, but not 
Gallic. I don't know why Gallic wasn't involved.
    We have conducted many public hearings with the EPA to 
provide information to our people and to answer their 
questions. The EPA's team on the ground in the city of Garfield 
has been exceptional. They have answered our concerns 
professionally, knowledgeably and competently.
    They have given reassurance to a scared populace. Despite 
that reassurance, property values in the area have definitely 
declined.
    With the assistance of the EPA, 400 homes and properties 
have been examined. Contaminated properties detected to date 
have been cleaned up and monitoring wells have been installed 
throughout the affected areas, between 8 and 400 feet deep in 
order to fingerprint exactly where the contamination lies below 
the surface.
    To get to the ground below the ECD Electroplating factory, 
demolition of the building on the surface was required. Due to 
safety concerns from residents that chromium tainted dust could 
be released from the property during demolition, an additional 
public hearing was held with the staff and administration of 
the K-5 elementary school, one block away from the site, which 
included residents throughout the affected area.
    The factor itself has now been demolished and contaminated 
soil down to the water table has been removed. The site is 
fenced and ready for the next phase, removal of the chromium 
that sits below the ground in the water table of this 
neighborhood.
    This clean-up phase will absolutely require funding of the 
USEPA initiative in the city of Garfield. We are a Superfund 
site. We are a Superfund clean-up priority. We are a community 
living in fear that this chromium in our water table may be 
impacting the health, safety and welfare of our residents.
    Our clean-up need is immediate. I urge your committee to 
continue with the necessary funding to address Superfund sites 
in the city of Garfield.
    On a personal note, I have a grandson with autism. I have a 
godson with autism, both born in the city of Garfield. I love 
them dearly. I can't say that this caused it, I can't say that 
it didn't cause it either. You are absolutely right, especially 
these days with the rate of autism and especially in the State 
of New Jersey.
    I urge you to continue the cleanup in Garfield.
    Thank you.
    [The prepared statement of Mayor Delaney follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Senator Booker. Mayor, thank you very much, especially for 
the personal note at the end. I am grateful for that.
    Mr. Spiegel.

STATEMENT OF ROBERT SPIEGEL, EXECUTIVE DIRECTOR AND CO-FOUNDER 
                 OF EDISON WETLANDS ASSOCIATION

    Mr. Spiegel. Thank you, Senator Booker.
    Good afternoon. My name is Robert Spiegel, Executive 
Director and co-founder of the Edison Wetlands Association. 
Thank you for allowing me to testify on this extremely 
important issue today, one that deeply impacts public health 
and the environment.
    Before I start my testimony, I would like to say that 
cleanups of Superfund sites, not only make communities more 
vibrant, they restore community health and welfare but they 
also create jobs while the Superfund site cleanup work is going 
on, sometimes for several years, good paying jobs, blue collar 
jobs and support for jobs in communities where these cleanups 
take place.
    While they are also good for the environment, they also 
stimulate the economy. We have seen that firsthand at many of 
the Superfund sites that we have seen cleaned up in New Jersey 
and beyond.
    The EWA is a nonprofit organization that started in 1989. I 
was working as a pastry chef at the time in a catering hall. 
The hall's ice carver, John Shersick, who was also a naturalist 
and hunter, came into my bakery because he liked the smell of 
the baked goods, and asked me a question 1 day, hey, do you 
want to come see some green rabbits?
    I pretty much was the kind of person that minded my own 
business, worked and didn't pay too much attention to the 
environment, which in New Jersey is kind of a difficult thing 
to do, but green rabbits were a little over the top.
    I followed the ice carver onto a site called the Chemical 
Insecticide Superfund Site on Whitman Avenue in Edison, New 
Jersey. Indeed, the rabbits were green. It was because of a 
chemical called DynaSep. What I saw that day was children 
playing on the site, homeless people living on the site, people 
scavaging wood to build their decks. What they didn't know was 
this site was a place that made Agent Orange, the infamous 
defoliant used in the Vietnam War.
    That day turned me from a pastry chef into somebody that 
got involved in Superfund and environmental remediation.
    One of the things I wanted to talk about was over the last 
10 years, we were able to get the last of the Superfund checks 
to clean up that site. Christie Whitman came and delivered that 
check. It was the last of the trust fund, the very last check. 
It got the site cleaned up.
    While we were happy that we got our site cleaned up, we and 
the community around us were sad that somebody else didn't as a 
result of the fact there was no more Superfund Trust Fund.
    I am here today to discuss the trust fund and the reason 
why we need it to clean up these so-called orphan sites. Orphan 
sites are sites where there is either not anybody to start the 
cleanup or there is insufficient money.
    It has a rippling effect, not just on orphan sites, but 
sites where there is an active, responsible party because we 
have a thing called treble damages in Superfund where if a 
Superfund polluter refuses to do the cleanup, EPA can step in 
and do the cleanup and bill them for up to three times the 
cleanup cost.
    This big stick was seldom used by EPA but now without a 
robust Superfund, that threat is hollow because the polluters 
know that EPA cannot take over these cleanups and therefore, 
are much less likely to undertake them themselves.
    Priorities for cleanups in Superfund communities are now a 
race to count the bodies of those who are sick and dying. Only 
those communities with the highest body counts are getting the 
funding from the EPA for Superfund cleanups. That is not the 
promise that was made to the Nation when Superfund was enacted. 
It was enacted to address the Nation's hazardous waste sites, 
not just the ones with the highest body counts.
    New Jersey has a rich industrial legacy which has been both 
a blessing and a curse for our State. We have the most 
Superfund sites and we have about 25,000 known contaminated 
sites. If the Superfund Program was fully funded, by any 
objective observer, these fees are modest, we would have the 
funds to address the sites that are problematic in New Jersey 
and around the Country.
    In my research, Congressman Eckhardt's 1979 waste disposal 
hearings, survey and final report show conclusively that the 
chemical industry used the entire United States as its own 
private chemical dump with no town or city being exempted from 
industrial practices. It is only fair that they contribute the 
modest fees asked of them to clean up the Nation's toxic waste 
dumps and nightmare that they created.
    I can talk about some of the sites that we work on like the 
10 mile Bound Brook where we have active chemical discharge. It 
is the most poisoned brook in New Jersey. You can't eat a 
single fish out of it, yet the State of New Jersey and the EPA 
have no funds to even finish the reports, no less start the 
cleanup. We can discuss some of the sites if you like after my 
testimony.
    I always find it curious that when we need money to build 
bombs or wage wars, there is always plenty of money to be 
found, but whenever you ask for money for environmental 
protection or Superfund site cleanups, there is never a dime in 
our budget. I just think our priorities are backward.
    This is a direct threat to our national security and towns 
and cities across the Country. We need to reauthorize these 
modest polluter pays fees so that we have the funds to clean up 
the Garfields, the Ringwoods, the Pompton Lakes, the towns 
throughout New Jersey and beyond and have the funds needed to 
not only create good jobs, but revitalize these communities and 
protect public health and the environment.
    Thank you, Senator Booker.
    [The prepared statement of Mr. Spiegel follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Senator Booker. Mr. Spiegel, thank you very much for your 
testimony.
    Susan Bodine.

                  STATEMENT OF SUSAN BODINE, 
                   PARTNER, BARNS & THORNBURG

    Ms. Bodine. Thank you very much, Chairman Booker, for 
inviting me to testify today on protecting taxpayers and 
ensuring accountability, faster Superfund cleanups for 
healthier communities.
    I have I think voluminous testimony in the record so I am 
going to try to be very short and make a few highlights. Then I 
want to talk about the funding issue.
    EPA can protect taxpayers by staying within its statutory 
authority, focusing on national priorities, and making sure it 
follows its own policies. Headquarters does put out a number of 
policies and has a number of expert groups whose role is to 
assist the regions in remedy selection, making sure they follow 
national policy, and making sure that they are developing 
protective and cost effective remedies.
    There is a management issue there in that the regions don't 
report to the headquarters Superfund Program, there is no line 
authority there, so it is more hortatory trying to make sure 
the regions are following national policy.
    Nonetheless, the policies are there and we do have these 
expert work groups of headquarters and regional staff who are 
there to assist regions to make sure they are developing cost 
effective remedies that stay within the legal authorities.
    I want mention the fact that EPA's Superfund Program is 
protecting communities. That is, of course, the highest 
priority. The agency is focusing on cutting off exposure which 
is different from returning to economic reuse. First and 
foremost, cutting of exposure, protecting human health at these 
sites is happening first. That is the highest priority.
    Returning sites to beneficial use can take longer. That may 
not be the highest priority in every situation. It is a good 
thing, everyone agrees it is a good thing, but from a budgetary 
standpoint, protecting human health is absolutely the highest 
priority.
    Returning sites may lag and that is why you do see in some 
of these cases, situations where EPA goes in and screens the 
400 homes in Garfield, makes sure the 13 homes with high 
exposures are cleaned up and then the site itself, which isn't 
presenting exposure issues right now, may lag but that is a 
funding issue.
    That is a priority issue where returning to economic 
development, which everyone agrees is important, isn't as high 
a priority as cutting off exposure and protecting people.
    In answer to the question could the Superfund Program spent 
more money, the Regional Administrator said she could spend 
twice as much money. The President didn't ask for twice as much 
money; the President's request for 2015 is $1.156 billion for 
the Superfund Program. The Deputy Administrator explained how 
that was carved up to different offices and different purposes.
    Nonetheless, the Superfund Program competes with every 
other program within the Federal budget for money. That is true 
whether or not the Superfund taxes are reinstated. That is true 
whether or not there is money in the Trust Fund, whether or not 
there is a huge balance in the Trust Fund.
    The reason that the Superfund Trust Fund is on budget, it 
is part of the unified Federal budget. It is not off budget, 
there are no firewalls. If it were off budget, it would truly 
mean that it could not be expended at all for other purposes.
    If it were firewalled, this is something this committee 
holds near and dear because you have the Highway Trust Fund. 
The Highway Trust Fund has firewalls. That means that the 
funding in the Highway Trust Fund cannot be used to offset 
Federal spending. That is not true of the Superfund Trust Fund.
    That is why when the taxes were being collected, the trust 
fund was gaining a very large balance. In fact, at the end of 
1995, it had a balance of $3.7 billion, whereas the 
appropriation for 1995 was $1.4 billion and the appropriation 
for 1996 was $1.3 billion.
    The trust fund balances and the appropriations have never 
tracked. Again, it is because that money is not mandatory 
spending, it is not off budget, it is not available, it has to 
be appropriated and the money can offset any other spending.
    The taxes, you had a bit of discussion on the taxes 
earlier, are simply raising revenue. That is policy neutral or 
it is morality neutral. You can put an excise tax, a sales tax, 
on the sale of chemicals, you can put an excise tax on the sale 
of oil, the tax will be passed through and people who buy 
products made with chemicals, whether it is a car seat, a bike 
helmet or anything else, or people who buy gasoline, are going 
to pay more.
    You can also put a tax on corporate environmental income. 
It is a net income above $2 million. Net income above $2 
million it is a tax across the board. Again, that is value 
neutral. It is not polluter pays because there is no 
determination if these entities are polluters and if a company 
produces oil or chemicals and creates a problem, the companies 
paying taxes are the ones in business. They are paying for any 
cleanup of pollution that they create.
    In fact, they are not doing it under Superfund. There is a 
whole other program, the Resource Conservation Recovery Act, 
RCRA. Ongoing industrial operations are addressed under RCRA 
and are not even addressed under Superfund for an ongoing. 
Superfund is for the legacy sites.
    I have gone way over my time but I just wanted to make sure 
that you understood how the trust fund works and what the taxes 
are.
    [The prepared statement of Ms. Bodine follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
    
    Senator Booker. Ms. Bodine, that was very helpful. I am a 
vegetarian so forgive the analogy, but that had a lot of meat 
on it, so I appreciate it.
    Scott Thompson?

   STATEMENT OF SCOTT THOMPSON, EXECUTIVE DIRECTOR, OKLAHOMA 
              DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Thompson. Good afternoon, Chairman Booker.
    I'd like to thank you and Ranking Member Inhofe for 
allowing me to speak today.
    My name is Scott Thompson, Director of the Oklahoma 
Department of Environmental Quality.
    My personal involvement with Superfund started in 1984. I 
was out pulling samples across Oklahoma, evaluating sites for 
the Superfund Program.
    I would like to begin by thanking EPA Administrator 
McCarthy for bringing a very cooperative atmosphere to working 
with headquarters, the regions and the States. I think that is 
very healthy.
    One program we work in that demonstrates the success of 
partnerships between EPA, the States and the local stakeholders 
is the Brownfields Program. Information we previously obtained 
through the Superfund Site Assessment Program on various 
Oklahoma sites allowed us to get expedited redevelopment on 
many brownfields properties.
    Additionally, the liability releases through the 
Brownfields Program have provided the necessary assurances to 
entice developers to invest in communities and to spark more 
urban renewal.
    Two examples of successful, award winning projects include: 
one, the Guthrie Green Project in Tulsa which was funded by the 
non-profit George Kaiser Family Foundation, and was the 
recipient of the 2012 Brownfields Renewal Award; and two, the 
Devon Energy Center in Oklahoma City which received the 2012 
EPA Region 6 Phoenix Award as well as the 2012 National Phoenix 
Award.
    Both sites are now vibrant recreational gathering places 
that have sparked economic and cultural rejuvenation in Tulsa 
and Oklahoma City. These major successes were only possible 
through the teamwork of many dedicated partners.
    The importance of public funding for the Brownfields 
Program cannot be overstated. Its greatest impact is by 
removing perceived and real environmental obstacles at sites 
and allowing economic redevelopment and encouraging other 
private development around those sites.
    The program demonstrates that modest public investment can 
lead to extraordinary growth that far exceeds the original 
scope of the original brownfields project. Due to the major 
impact that brownfields funding has had in Oklahoma, the 
Oklahoma DEQ strongly supports reauthorization of this program.
    The Superfund process, while noble in its goals, is not 
without its drawbacks. It takes a very long time to 
successfully complete the process and can put a strain on 
resources, on communities, on human health and on the 
environment.
    Our lengthy experience with Superfund sites at the DEQ 
strongly indicates the best way to maintain cost effectiveness 
and to adequately protect human health and the environment is 
to have responsible government oversight of contractors.
    One recommendation I have for improving the Superfund 
Remedial Program is to look at the Superfund Emergency Response 
Program as a model. On-scene coordinators function as onsite 
construction and contract managers in a way that is 
substantially different than some remedial project managers.
    In my experience, RPMs are often removed from onsite 
remedial actions. Cost control on remedial projects is at times 
managed in an inefficient way in comparison to removal actions. 
Remedial actions on National Priorities List sites would 
benefit if the RPM model was modified to mirror the OSC model.
    Fostering innovative partnerships is another way to ensure 
cost efficiencies and to better protect human health and the 
environment. One example of such a partnership is the 
cooperative agreement between EPA Region 6 and the Quapaw Tribe 
which was fully supported by the Oklahoma DEQ.
    This groundbreaking agreement provided the tribe with funds 
to conduct cleanup of specific tribal property while providing 
a platform for the tribe to demonstrate its capability to 
protect tribal homelands.
    The implementation of this agreement successfully 
demonstrated that direct local involvement can be more cost 
effective and that local communities have a vested interest in 
protecting their homes.
    However, an opportunity was missed to continue the cleanup 
of adjacent property while the Quapaw Tribe was mobilized in 
the field. This would have saved us some remobilization costs 
and got the job done quicker. I am fully supportive of 
providing matching funds for the Quapaw Tribe to do work on 
non-tribal properties because the tribe has demonstrated its 
ability to do high quality work.
    States have developed robust expertise in implementing 
Superfund and have a vested interest in ensuring that Superfund 
sites within their borders are adequately cleaned up. It seems 
that strong consideration should be given to delegating the 
program or portions of the program to the States.
    At a minimum, Congress and the EPA should facilitate 
cooperation between the various EPA regional offices and 
respective State environmental agencies. In my nearly three 
decades of working in the Superfund Program, we had our 
greatest successes when had strong partnerships with EPA and we 
worked as a team.
    Again, thank you, Chairman Booker, for allowing me to speak 
today. I'd be happy to take any questions.
    [The prepared statement of Mr. Thompson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Booker. Thank you for that valuable testimony. You 
give a lot of gratitude to me but I want to thank our Ranking 
Member Inhofe for including you as well. Your testimony is very 
valuable.
    I'd like to begin the questioning. If any Senators return, 
I will allow them to come in.
    Ms. Bodine, I really appreciate your comments. In fact, the 
issue of the firewall is something my team has been working on. 
We will be putting that in the legislation we will be putting 
forward.
    I also appreciate the truth of the matter that sometimes 
these are done in phases. Some of those phases are to deal with 
that health urgency we have talked about. I think your point 
was right on, spot on.
    I am concerned about and am curious to get your input for 
the record as to the simple issue of funding. I agree with you 
100 percent. You can call it whatever you want, we have lots of 
fancy names for revenue in the Senate, as I am quickly 
learning, but as you said, it is value neutral, the resources.
    That is not my issue. I think that is something that 
Congress has to figure out the best way to pay for it or 
whether to do anything differently.
    My question for you is, do we need more funding? I will be 
specific. If we know that stopping the health risk is the 
priority, the economic development is secondary, I would agree 
with you on that.
    The evidence right now is really stunning to me on those 
that pose ongoing health risks to families and communities. The 
EPA in 2010 noted that 75 of the sites on the NPL nationally 
presented what they termed an unacceptable level of human 
exposure. What bothers me now is that number is now up to 89 
around our Country, posing serious health risks to communities, 
much of which are now being documented by academic peer-
reviewed studies.
    The response I seem to get from the previous panel is that 
some of those sites we are not moving on because we don't have 
the resources. In your experience dealing with these issues, 
both in the public and private sectors, do we have the 
resources needed to deal with the ``unacceptable level of human 
risk'' in the expedited fashion that would best protect the 
American public?
    Ms. Bodine. One of the measures is the human exposure 
measure. It is very good that the agency tracks that. They 
haven't always in the past and do track that now.
    To answer your question, you'd have to know why the human 
exposure was still not under control. That is the test. I 
strongly believe that EPA does everything it can to cutoff 
human exposure as quickly as possible.
    Some of the sites not under control that can still cause 
human exposure are sites where the exposure is, for example, 
fish consumption and there is a fish advisory in place saying 
don't eat the fish but nonetheless the agency is aware that 
some people do eat the fish. Therefore, it labels the site 
human exposure not under control.
    Nonetheless, it will take decades and decades to get the 
levels down so that the fish consumption advisory can be 
lifted. That is a situation where EPA is doing what it can, but 
it is going to take a very long time before that can be lifted.
    In other situations, communities don't give access. I don't 
think every home in Garfield gave access. If the agency can't 
get access to the site, they can't do the cleanup, then the 
agency is not going to call it human exposure under control 
because it is not. Nonetheless, they did everything they could.
    Each of those up to 89 sites, you'd have to look and see 
why. You are assuming it is funding; I am not assuming. I am 
assuming that the agency is doing everything it absolutely can 
to get that human exposure under control.
    Senator Booker. So you are not representing that all of 
these 89 are just because of non-funding related issues. You 
are saying you'd have to evaluate them?
    Ms. Bodine. Right. I don't know the story. I am not 
assuming it is not funding, I would not assume it was funding 
either. In fact, I guess I would go further and say I am 
assuming it is not funding because I do believe the agency has 
and certainly should have if that isn't the case, has its 
priorities in place so it is spending money first to eliminate 
exposure.
    Senator Booker. So the testimony of Judith Enck that she is 
ready to move on some of these sites that are considered 
unacceptable human risks, she feels we need to address them, 
and when she says the only thing stopping her is funding, you 
are saying that is not the case?
    Ms. Bodine. You are referring to the Regional 
Administrator's testimony?
    Senator Booker. Yes.
    Ms. Bodine. Again, you'd have to look at each story. I am 
not going to say it is not accurate. I'd have to look at the 
sites to which she was referring.
    Senator Booker. You just said that you thought none of them 
had to do with funding issues.
    Ms. Bodine. That I thought none of them had to do with 
funding issues on the human exposure issue. I did agree that 
getting sites back into productive use is lagging due to 
funding. Sites aren't going to be completed as quickly due to 
funding. I think the agency is doing everything it can to get 
the exposure under control.
    If it isn't, if it is prioritizing economic redevelopment 
over human exposure, that is a problem. That is something as an 
oversight agency, you should look at.
    Senator Booker. Ms. Gibbs, I was out with the EPA Region 2 
director on a number of these sites that do have ongoing human 
exposure that claim the funding and resources aren't there. In 
fact, it really disturbed me that a lot of unanticipated 
weather events have further added to the health concerns on the 
sites we are not moving on simply because of lack of money.
    For example, the flooding we got during Hurricane Sandy at 
a lot of these sites aggravated human exposure and the levels 
that are very frightening to me. The site I stood on had severe 
flooding which then carried much of those contaminants that 
were otherwise isolated back into our water table, our drinking 
water table in and around the site I was on.
    I have testimony from folks out there in the field who do 
know the details of all the sites telling me not only is it an 
ongoing health risk but it is also now being aggravated by 
these once in a hundred year weather events. I seem to see them 
now about every other year in New Jersey.
    You spoke about the suffering of your children and others 
in the Love Canal community from living on top of a Superfund 
site. Much of the debate over Superfund focuses on how much it 
costs to clean it up.
    I don't know how you really measure the costs. As said by 
Mr. Spiegel, over the last 30 years you have been involved in 
this, you have witnesses the Senate move to help savings and 
loans come up with tremendous resources during that crisis. You 
have watched bank bailouts, tremendous money during that 
crisis. You have watched a war in Iraq spending billions of 
dollars every week to deal with that crisis. I have watched 
thankfully natural disasters, most recently Sandy, and dealing 
with that crisis.
    I believe that crises that face our children and their 
health and well being, which you have personally experienced, 
should be a matter of priority and urgency at the same level if 
not more than just a handful of things this body seems to come 
up with the resources to deal with.
    I'd like to ask, these public health costs, could you tell 
me the real nature of those public health costs and risks in 
the human terms you have experienced in your 30 years of work?
    Ms. Gibbs. I don't have actual numbers but I will tell you 
that what is forgotten in this is those human costs. You have 
mothers and fathers who have children who have to go to the 
hospital. If you look at the Oklahoma site mentioned earlier, 
there are children 1-5 who have very high levels of lead. Those 
children lost IQ points. What does that cost? Where are those 
children going to go? How do they make a living?
    It is a bigger societal cost. What does it cost to take 
somebody to the hospital for asthma? It is a huge cost. I think 
that is what is being forgotten.
    My children, fortunately, survived Love Canal. Others did 
not. When you have a miscarriage, what is the cost? You have 
medical costs associated with it, but what is the cost to 
society when a woman loses a child, a child she was ready and 
prepared to have a happy life with and then it is gone by no 
fault of her own?
    I really think the human element of this, in the eye of the 
storm is what we call it, when the tornado went through 
Oklahoma, when Sandy hit there, when Katrina hit the 
agricultural Superfund site in southeast New Orleans, it 
creates additional environmental costs because when you take 
the agriculture landfill and spread it all out in southeast New 
Orleans, you have to go back and test it again, clean it up 
again and assess it again.
    Without the proper amount of money to totally cleanup these 
sites, we are just going to keep on feeding, feeding and 
feeding the same problems over again.
    I was around when the tax and the polluter pay fees were 
established, if I could add one more thing. The income tax part 
of the polluter pay fee is the price of a pizza. I know that 
sounds very simple because corporations are saying they are 
going to go bankrupt.
    The fact of the matter is if a company makes a million 
dollars, say Exxon, and had to pay the income tax, the old 
established tax according to the 1986 bill, on every million 
dollars, it would be the price of a cheese pizza. That is what 
we are really talking about here.
    We are talking about a woman who loses a child, a family 
who has a child who no longer can reach its potential because 
of IQ loss or other things for the price of a pizza. It 
literally is $12 per million dollars. To have so little 
disregard for human life, family and property that the other 
side would argue that the whole world is going to come crashing 
down and our economy for the price of a pizza. That is really 
what we are talking about.
    My children almost died on me. My church can buy plenty of 
pizza and they don't have a lot of money like some of these 
larger corporations. I really encourage you.
    I don't know the numbers, I know the suffering and I know 
it does cost money. My husband made $10,000 a year. My 
daughter's hematology clinic cost us $90 a week. That adds up a 
lot. You just get trapped.
    Senator Booker. Thank you, Ms. Gibbs.
    Mr. Spiegel, I want to talk about a specific site with you. 
It is a New Jersey Superfund site I am really concerned about. 
It is the Ringwood Mine site. That site was listed as a 
Superfund site, then it was delisted in 1994. Then in 2006, it 
was relisted again.
    I know you have worked with the local residents there. 
Could you describe the impact that site has had on the local 
community, bringing to light the costs we don't often see when 
we add dollars and cents? In your response, can you include the 
Ramapough Lenape community?
    Mr. Spiegel. Sure. Originally, the late Senator Lautenberg 
requested that I go up to see Ringwood and assist the community 
because the Senator was very concerned about the situation in 
Ringwood, the wholesale poisoning of the Ramapough Lenape 
Indian Nation.
    That is a community that lives in upper Ringwood. They 
actually live on the mountains where the iron mines of Ringwood 
provided iron for the building of the United States, and have 
lived there for 300 years.
    They provided the iron that helped to build the dome of the 
Capitol in the United States. They mined the iron that made the 
first 500 cannonballs shot in the Revolutionary War. They 
played a significant part in the Country's success and were 
repaid by being wholesale poisoned by toxic waste dumped on 
them by the Ford Motor Company from their manufacturing base in 
Mahwah, New Jersey.
    When I went up to this community, I could not believe what 
a beautiful and amazing area this is. It sits above the Wanaque 
Reservoir which provides drinking water for 2 million north 
Jerseyians, including Newark.
    This place is of such immense beauty, when I went up there 
and saw the absolute devastation brought on these very proud 
and hard working Native American families, I cried my first 
night. I went to a meeting and after that, I made a commitment 
that I would not leave this community until it was cleaned up.
    Every home in the 50 homes in the upper Ringwood area has 
either someone who has died, know someone who is currently 
dying or has lost a child. I have worked with Vivian Milligan 
who is an activist up there who just refuses to give up the 
fight. She wants to get her community back.
    This is a community that lives off the land like most 
Native American communities. They hunt the land, they gather 
berries and medicinal medicines and have been there for 
hundreds of years. Now their way of life is being threatened.
    Senator Booker. Based on your experience in New Jersey, are 
there sites with unacceptable ongoing risks of human exposure 
that need additional funding? I know you work with the EPA and 
have a lot of personal experience with their assessments. I 
would appreciate it if you would answer that question.
    Mr. Spiegel. Yes, sir. Every single Superfund site that is 
not remediated has unacceptable exposures. I have not seen a 
Superfund site in New Jersey that does not stop at the fence 
line where the chemicals are not running into residential 
neighborhoods or waterways, into playgrounds or parks.
    There are dozens of sites that we work on day in and day 
out that have chemicals that are impacting the health of 
children. If you went to Ringwood, you would see firsthand the 
absolute misery and death that has been brought upon this 
community by no fault of their own, by the poisons dumped by 
Ford Motor Company.
    It is the only site in the Country that had to be relisted 
a second time because of the failure at all levels of 
government. The families there want nothing more than you and I 
want which is to have a safe place to raise our children and 
continue on living.
    They can't because right now EPA has not decided whether or 
not they are going to clean up the mineshafts or require Ford 
to clean up the toxic sledge because of money, plain and 
simple. They do not have the money to do it if Ford refuses.
    Senator Booker. Regarding the health issues and the Mayor's 
testimony, the honesty he gave in his personal comments, that 
is a lot of anecdotal evidence. Are you familiar with a lot of 
the studies that are coming out now, especially the one done at 
Princeton that looked at hundreds of thousands of American 
birth records?
    I was amazed with the things they control for, age, whether 
the people smoked or not and concluded that there was a 20 
percent increase in birth defects before cleanups of Superfund 
sites compared to after the remediation.
    Have you done any kind of analysis of the studies that are 
out there that my team was wading through in preparation for 
this hearing?
    Mr. Spiegel. I have looked at the studies. They study you 
are discussing was one that was trying to show the opposite. 
They ended up showing that in fact communities where Superfund 
sites were cleaned up showed a marked increase in the health of 
the children across the board.
    It is not rocket science to understand that when you have a 
poisoned community and clean it up, that community is not only 
going to be more vibrant with better places to live, but the 
people are going to be healthier. I have seen community after 
community in New Jersey where people who live near these 
Superfund sites get sick and die.
    I don't have to look at statistics because I go to the 
funerals of the families in Ringwood. I go to the funerals of 
the families in Pompton Lakes. I go to the funerals of families 
that live around the Cornell-Dubilier site and other sites 
where we work.
    I see firsthand the absolute misery and suffering that 
these families go through only because they picked the wrong 
zip code to raise their family. Nobody should have to sacrifice 
a family member because they picked the wrong zip code and 
happen to live near a Superfund site that doesn't have the 
funds to be cleaned up.
    Senator Booker. Just to conclude with you, Mr. Spiegel, you 
work closely with EPA officials. I think you actually have a 
degree of respect for those working out there and you have seen 
a number of them. I know you worked with Lisa Jackson before 
and others.
    Is it right to conclude that if these officials had more 
resources, they could get the job done a lot quicker? Is that 
your conclusion?
    Mr. Spiegel. Absolutely. At one site alone, Bound Brook, we 
have a ten mile poisoned brook where children are playing that 
has an active discharge of chemicals, of PCBs and dozens of 
other chemicals.
    EPA doesn't even have the funds to put out the study. Mark 
Weston, the project manager, can't release the study because 
they don't have the funds to finish it. When we talk about 
cleanups, when EPA doesn't even have the funds to finish the 
investigative work, no less the cleanup, that tells us that we 
have a drastic emergency, one in which certainly funding would 
go a long way.
    Going back to the Oklahoma Director of Environmental 
Quality, the emergency removal branch of EPA in Region 2 is by 
far the best I have ever seen. They can go in and get the job 
done very quickly at sites. They can assess them. We have seen 
them work together with the remedial branch to fast track 
investigations so that we can get to the cleanups quicker.
    If we had more funding in the removal branch, which goes 
out first to these imminent threats, and gave them more funding 
to be able to go in and get these sites moving quicker, these 
sites would be cleaned up quicker.
    Senator Booker. Mayor Delaney, thanks again for being here.
    We have talked about a lot of the health aspects, but you 
and I also were mayors. I was a mayor, you are a mayor. Could 
you tell me in general the impacts the Superfund site has had 
on your residents in terms of not just health but this is prime 
real eState in your city and the loss of that economic 
generation, I wonder if you can speak to that as well?
    Mayor Delaney. Of course it has an economic impact. I know 
a dear friend of a family that lives in the direction of that 
plume. They wanted to sell their house and they can't even sell 
their house. The house depreciated at least 40 percent since it 
was determined they were in that area. That affects everything 
from their credit to the way they live, everything they do.
    The most important object a person buys is their house. 
When your house depreciates that quickly, it throws the whole 
family into a tailspin. It is saddening to see the prices and 
value of the homes in this area.
    Senator Booker. You know this from other mayors. The 
opportunities for future economic development onsites where you 
could build or have other companies come or what have you, can 
you give an understanding, to your knowledge, of what it means 
to a community to get back a contaminated area?
    Mayor Delaney. It is very important to get back a 
contaminated area, to put it back on the tax rolls and see 
people back to work in certain areas. We do have contaminated 
properties, not Superfund sites, in the city of Garfield where 
people are looking to invest and clean it up.
    The talk is, let's get this done. There are people who will 
definitely thrive once you do cleanup the property and put it 
back on the tax rolls.
    Senator Booker. Mr. Thompson, the good partnerships you 
have between localities is so important and with the Federal 
Government in these cleanups. I want to get to your experience 
because Mayor Delaney, you have sort of bad experiences in some 
sense if this partnership doesn't work like it should.
    I think there is some idea in Washington that Congress 
should give more control of the Superfund Program to the States 
rather than keeping authority or control with the EPA. The EC 
Electroplating Factory site in Garfield was managed by the 
State for a while. In fact, it was managed from 1983 when the 
hexavalent chromium spilled until about 2008.
    From your experience, can you tell us what it was like when 
the site was managed by the State versus when it was managed by 
the EPA?
    Mayor Delaney. Honestly, I feel the State dropped the ball. 
The State did not do the work that it should have done. I don't 
know if they thought the chromium would just disappear. Stuff 
like that don't go away. To do nothing is the worse. To do 
something is much better.
    When the EPA did come in, we saw some progress and that 
alone left the residents feeling better, that something 
actually was being done right now. Everybody realizes this 
stuff just don't disappear.
    Senator Booker. Ms. Gibbs, let me ask a concluding 
question. You have been fighting this battle for decades. That 
means a lot to me as a newbie here in the U.S. Senate that you 
have put in that kind of effort.
    You worked with the environmental champion that was here 
before me who I think a lot of Americans, from those flying on 
planes without cigarette smoke, have benefited from that 
gentleman's efforts on environmental issues in general.
    To see some of these sites go on for decades in the State 
of New Jersey, literally in 30 years, an entire generation has 
grown up in our State in and around these sites. I wonder if 
you could advise a Senator like me on how to solve this 
problem?
    I am now considering legislation with some of the wisdom 
expressed by Ms. Bodine and others of putting a firewall on the 
money, looking to legislation that would stop Congress from 
having to appropriate it every single year but have those funds 
dedicated and focused.
    Looking at a funding mechanism, I think that is where the 
issue and debate is going to be. It seemed something that was 
right for Reagan, that was right for McConnell, that was right 
for pretty much 80 of the 100 Senators in 1986, if I remember, 
that reauthorized those funding mechanisms.
    Now that funding has lapsed. The slowness that we see of 
getting these sites remediated to which the testimony of the 
previous panel specifically pointed, the slowness is caused, I 
think Ms. Bodine was right, by a lot of other factors. Clearly 
there are shovel-ready projects right now that were testified 
to.
    As look to focus on legislation, as this panel will have to 
discuss it, and great Senators like Senator Inhofe who has been 
focused on these issues for some time, I am wondering in my 
heart if you have any final bit of advice for me because with 
all due respect, I don't want to be here 30 years from now 
dealing with this issue and have my children, who are yet 
unborn, be growing up in my State that I love with over 100 
Superfund sites moving so slowly.
    I am wondering, given the technical aspects of having to 
design legislation, if you would have any specific parting 
advice on this hearing? Obviously, I would be open to everybody 
and look for advice as we try to push forward and actually 
solve this problem.
    Ms. Gibbs. Thank you for that question.
    I think that one of the biggest things is to not have the 
fees or the funding mechanism sunset. In 1996, there was 
agreement to do the feed stock fee as well as the income tax. 
Then after a sunset, we are starting from scratch.
    I really think that whether you put firewalls on it or how 
you go about it, whatever we are able to do to get money in 
there, we need to make sure it does not sunset.
    I think one of the keys that Administrator Enck and others 
talked about is what we need to have a stable funding mechanism 
which is meant for this program.
    My other piece of advice is to follow Senator Lautenberg's 
lead. He did an extraordinary job of being persistent and a 
little aggressive, a heck of a smart man and a mentor whom I 
certainly enjoyed working with through my 30 years on 
Superfund.
    Senator Booker. That is incredibly helpful.
    Ms. Gibbs. You could also serve pizza at the meeting.
    Senator Booker. What is that?
    Ms. Gibbs. You could also serve pizza at your first meeting 
to discuss this. Maybe someone will ask why you are eating 
pizza.
    Senator Booker. That is a very good point.
    After Mr. Spiegel's testimony and he told me he was a 
pastry chef, I thought maybe he would have brought me something 
for this meeting, but that might have violated some of the 
rules of ethics. I appreciate you not putting me in that bind 
where I value my moral values versus my temptation to consume 
carbohydrates.
    I want to ask unanimous consent to enter into the record 
those very disturbing health studies I referenced in my opening 
statement. They are chilling and disturbing and should be 
motivating us as a nation to see this as the crisis it is and 
to solve the problem with the collective wisdom of both 
parties, especially the study relating to birth defects and 
autism.
    [The referenced information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   

    Senator Booker. Hearing no objection, I would also ask 
unanimous consent to enter into the record letters from 
Congresswoman Julia Brownley of California and multiple 
California mayors and city officials. These letters all support 
the complete remediation of the Halaco Superfund site in 
Oxnard, California. I think those are important to include in 
the record as well.
    [The referenced information was not received at time of 
print.]
    Senator Booker. I want to thank you all for your time. I 
know it takes a lot of energy to come here to Washington and 
participate in a hearing but this hearing is of great 
importance. The testimony from everyone, I must say, was 
invaluable.
    Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 5:05 p.m., the hearing was adjourned.]

                                 [all]
                                 
                                 
</pre></body></html>
